               Department of Veterans Affairs
               Office of Inspector General


                    Office of Healthcare Inspections

Report No. 14-00938-272


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                 at 

 Minneapolis VA Health Care System 

      Minneapolis, Minnesota 





September 8, 2014

                        Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                     CBOC and PCC Reviews at Minneapolis VA Health Care System, Minneapolis, MN



                                            Glossary
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       FY         fiscal year
                       MH         mental health
                       MM         medication management
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       PCMM       Primary Care Management Module
                       PCP        primary care provider
                       RN         registered nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
                            CBOC and PCC Reviews at Minneapolis VA Health Care System, Minneapolis, MN



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     5

  MM ..........................................................................................................................    7

  DWHP Proficiency ..................................................................................................              8


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            9

  B. PACT Compass Metrics ....................................................................................                    11

  C. VISN Director Comments ..................................................................................                    15

  D. Facility Director Comments ...............................................................................                   16

  E. OIG Contact and Staff Acknowledgments .........................................................                              20

  F. Report Distribution .............................................................................................            21

  G. Endnotes ...........................................................................................................         22





VA OIG Office of Healthcare Inspections
                     CBOC and PCC Reviews at Minneapolis VA Health Care System, Minneapolis, MN



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted site visits during the week of July 28, 2014, at the following
CBOCs which are under the oversight of the Minneapolis VA Health Care System and
Veterans Integrated Service Network 23:

    Maplewood CBOC, Maplewood, MN

    Twin Ports CBOC, Superior, WI

Review Results: We conducted four focused reviews and had no findings for the
Environment of Care review. However, we made recommendations in the following
three review areas:

Alcohol Use Disorder. Ensure that CBOC/PCC:

	    Staff provide education and counseling for patients with positive alcohol screens and
      drinking alcohol above National Institute on Alcohol Abuse and Alcoholism limits.

	    Staff consistently document the offer of further treatment to patients diagnosed with
      alcohol dependence.

	    Managers ensure that patients with excessive persistent alcohol use receive brief
      treatment or are evaluated by a specialty provider within 2 weeks of the screening.

	    Registered Nurse Care Managers receive motivational interviewing and health
      coaching training within 12 months of appointment to Patient Aligned Care Teams.

Medication Management. Ensure that CBOC/PCC staff:

	    Document that medication reconciliation was completed at each episode of care
      where the newly prescribed fluoroquinolone was administered, prescribed, or
      modified.

	    Provide medication counseling/education as required.

Designated Women’s Health Providers’ Proficiency.              Ensure that all Designated
Women’s Health Providers:

	    Maintain proficiency as required for the provision of women’s health care.

	    Are designated with the women’s health indicator in the Primary Care Management
      Module.




VA OIG Office of Healthcare Inspections                                                      i
                     CBOC and PCC Reviews at Minneapolis VA Health Care System, Minneapolis, MN


Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes C
and D, pages 15–19, for the full text of the Directors’ comments.) We will follow up on
the planned actions until they are completed.




                                                        JOHN D. DAIGH, JR., M.D. 

                                                       Assistant Inspector General for 

                                                          Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                      ii
                         CBOC and PCC Reviews at Minneapolis VA Health Care System, Minneapolis, MN



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

      	   Determine whether the CBOCs are compliant with EOC requirements.

      	   Determine whether CBOCs/PCCs are compliant with VHA requirements in the
           care of patients with AUD.

      	   Determine compliance with requirements for the clinical oversight and patient
           education of fluoroquinolones for outpatients.

      	   Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted onsite inspections, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees. The
review covered the following four activities:

      	   EOC

      	   AUD

      	   MM

      	   DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspections were conducted at randomly selected CBOCs that had not
been previously inspected.1 Details of the targeted study populations for the AUD, MM,
and DWHP Proficiency focused reviews are noted in Table 1.




1
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                          1
                        CBOC and PCC Reviews at Minneapolis VA Health Care System, Minneapolis, MN


Table 1. CBOC/PCC Focused Reviews and Study Populations

      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C score2 and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH PCPs designated as DWHPs as of October 1, 2012,
                               and who remained as DWHPs until September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




2
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
alcohol use disorders. Scores range from 0–12.


VA OIG Office of Healthcare Inspections                                                                              2
                               CBOC and PCC Reviews at Minneapolis VA Health Care System, Minneapolis, MN



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.a

We reviewed relevant documents and conducted physical inspections of the Maplewood and
Twin Ports CBOCs. The table below shows the areas reviewed for this topic. The facility
generally met requirements. We made no recommendations.

Table 2. EOC

NM                      Areas Reviewed                                     Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
       The CBOC is Americans with Disabilities Act
       accessible.
       The furnishings are clean and in good repair.
       The CBOC is clean.
       The CBOC maintains a written, current
       inventory of hazardous materials and waste
       that it uses, stores, or generates.
       An alarm system and/or panic buttons are
       installed and tested in high-risk areas (e.g.,
       MH clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills at least every
       12 months.
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.




VA OIG Office of Healthcare Inspections                                                                3
                               CBOC and PCC Reviews at Minneapolis VA Health Care System, Minneapolis, MN


NM               Areas Reviewed (continued)                                Findings
       All medications are secured from
       unauthorized access.
       Personally identifiable information is protected
       on laboratory specimens during transport so
       that patient privacy is maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing patient-identifiable
       information are not laying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
       Adequate privacy is provided to women
       veterans in the examination room.
       The information technology network
       room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually (at
       least twice in a 12-month period) and
       deficiencies are reported to and tracked by the
       EOC Committee until resolution.
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       Joint Commission standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercise.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.




VA OIG Office of Healthcare Inspections                                                                4
                               CBOC and PCC Reviews at Minneapolis VA Health Care System, Minneapolis, MN


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.b

We reviewed relevant documents. We also reviewed 39 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                     Areas Reviewed                                         Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
       Diagnostic assessments are completed for
       patients with a positive alcohol screen.
 X     Education and counseling about drinking            Staff did not provide education and counseling
       levels and adverse consequences of heavy           for 2 of 11 patients who had positive alcohol use
       drinking are provided for patients with positive   screens.
       alcohol screens and drinking levels above
       National Institute on Alcohol Abuse and
       Alcoholism guidelines.
 X     Documentation reflects the offer of further        We did not find documentation of the offer of
       treatment for patients diagnosed with alcohol      further treatment for two of six patients
       dependence.                                        diagnosed with alcohol dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
 X     Counseling, education, and brief treatments        Treatment was not provided within 2 weeks of
       for AUD are provided within 2 weeks of             positive screening for two of eight patients.
       positive screening.
 X     CBOC/PCC RN Care Managers have                     We found that 21 (39 percent) of 54 RN Care
       received motivational interviewing training        Managers did not receive motivational
       within 12 months of appointment to PACT.           interviewing training within
                                                          12 months of appointment to PACT.
 X     CBOC/PCC RN Care Managers have                     We found that 10 (19 percent) of 54 RN Care
       received VHA National Center for Health            Managers did not receive health coaching
       Promotion and Disease Prevention-approved          training within 12 months of appointment to
       health coaching training (most likely TEACH        PACT.
       for Success) within 12 months of appointment
       to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

1. We recommended that CBOC/Primary Care Clinic staff provide education and counseling
for patients with positive alcohol screens and drinking alcohol above National Institute on
Alcohol Abuse and Alcoholism limits.



VA OIG Office of Healthcare Inspections                                                                       5
                               CBOC and PCC Reviews at Minneapolis VA Health Care System, Minneapolis, MN


2. We recommended that CBOC/Primary Care Clinic staff consistently document the offer of
further treatment to patients diagnosed with alcohol dependence.

3. We recommended that managers ensure that patients with excessive persistent alcohol use
receive brief treatment or are evaluated by a specialty provider within 2 weeks of the screening.

4. We recommended that CBOC/Primary Care Clinic Registered Nurse Care Managers
receive motivational interviewing and health coaching training within 12 months of appointment
to Patient Aligned Care Teams.




VA OIG Office of Healthcare Inspections                                                                6
                               CBOC and PCC Reviews at Minneapolis VA Health Care System, Minneapolis, MN


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.c

We reviewed relevant documents. We also reviewed 39 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

NM                     Areas Reviewed                                         Findings
 X     Clinicians documented the medication              We did not find documentation that medication
       reconciliation process that included the          reconciliation included the newly prescribed
       fluoroquinolone.                                  fluoroquinolone in 5 (13 percent) of 39 patients’
                                                         EHRs.
       Written information on the patient’s prescribed
       medications was provided at the end of the
       outpatient encounter.
 X     Medication counseling/education for the           We did not find documentation of medication
       fluoroquinolone was documented in the             counseling that included the fluoroquinolone in
       patients’ EHRs.                                   5 (13 percent) of 39 patients’ EHRs.
       Clinicians documented the evaluation of each
       patient’s level of understanding for the
       education provided.
       The facility complied with local policy.

Recommendations

5. We recommended that staff document that medication reconciliation was completed at each
episode of care where the newly prescribed fluoroquinolone was administered, prescribed, or
modified.

6.   We recommended that staff provide medication counseling/education as required.




VA OIG Office of Healthcare Inspections                                                                      7
                               CBOC and PCC Reviews at Minneapolis VA Health Care System, Minneapolis, MN


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.d

We reviewed the facility self-assessment, VHA and local policies, PCMM data, and supporting
documentation for DWHPs’ proficiencies. The table below shows the areas reviewed for this
topic.  The areas marked as NM did not meet applicable requirements and needed
improvement.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                        Findings
 X     CBOC and PCC DWHPs maintained                    We found that 5 of 18 DWHPs with panels
       proficiency requirements.                        comprised of less than 10 percent women
                                                        veterans at the CBOC and/or PCCs did not have
                                                        evidence of implementation of alternative plans
                                                        to ensure ongoing proficiency in WH care.
 X     CBOC and PCC DWHPs were designated               We found that 22 of 27 DWHPs were not
       with the WH indicator in the PCMM.               designated with the WH indicator in the PCMM.

Recommendations

7. We recommended that clinical executive/primary care leaders ensure that CBOC/Primary
Care Clinic Designated Women’s Health Providers maintain proficiency as required for the
provision of women’s health care.

8. We recommended that the chief of staff consistently ensure that all Designated Women’s
Health Providers are designated with the women’s health indicator in the Primary Care
Management Module.




VA OIG Office of Healthcare Inspections                                                                8
                                                                      CBOC and PCC Reviews at Minneapolis VA Health Care System, Minneapolis, MN
                                                                                                                                     Appendix A


                                                                      CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.3
The table below provides information relative to each of the CBOCs.

                                                                                         Uniques4                                   Encounters4

                                    Station                  CBOC
         Location         State                Locality5                   MH7        PC8       Other9       All        MH7        PC8       Other9       All
                                       #                      Size6
    Northwest Metro,
    Ramsey                MN       618GI       Rural       Large             940      4,376      5,849      7,443      5,701       9,282    20,174     35,157
    Twin Ports,
    Superior              WI       618BY       Urban       Large          1,371       5,869      5,639      6,371      7,462     15,247     21,289     43,998
    Rochester             MN       618GG       Urban       Mid-Size         803       3,842      1,364      4,129      3,574      7,422      3,086     14,082
    Chippewa Valley,
    Chippewa Falls        WI       618GE       Urban       Mid-Size          645      3,835      1,178      4,059      4,496       8,259      2,709    15,464
    Maplewood             MN       618GD       Urban       Mid-Size          444      3,617      1,266      3,861      2,058       6,459      3,426    11,943
    South Central, St.
    James                 MN       618GA       Urban       Mid-Size          654      3,507      1,482      3,673      3,441       9,457      3,162     16,060
    Hayward               WI       618GH       Rural       Mid-Size          420      3,439        665      3,527      2,052       8,613      3,080     13,745
    Hibbing               MN       618GB       Rural       Mid-Size          447      3,400        554      3,458      2,129       6,695        990      9,814




3
  Includes all CBOCs in operation before March 31, 2013. 

4
  Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

October 1, 2012, through September 30, 2013, timeframe at the specified CBOC.

5
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx

6
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

7
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

8
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary Care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

9
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                         9
                       CBOC and PCC Reviews at Minneapolis VA Health Care Systems, Minneapolis, MN


                                   CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.10

                                   Specialty Care                                               Tele-Health
          CBOC                                                Ancillary Services12
                                     Services11                                                 Services13
 Northwest Metro                      Dental                      Audiology                 Tele Primary Care
                                  Ophthalmology               MOVE! Program14
                                    Optometry                Electrocardiography
                                   Immunology                      Nutrition
                                                                  Pharmacy
 Twin Ports                         Nephrology                   Laboratory                 Tele Primary Care
                                                                  Pharmacy
                                                                  Audiology
                                                             Electrocardiography
 Rochester                                ---                  MOVE! Program                Tele Primary Care
                                                             Electrocardiography
 Chippewa Valley                          ---                 MOVE! Program                 Tele Primary Care
                                                                 Social Work                    Tele Case
                                                             Electrocardiography              Management
 Maplewood                                ---                  MOVE! Program                Tele Primary Care
                                                             Electrocardiography

 South Central                            ---                Electrocardiography            Tele Primary Care

 Hayward                                  ---                Electrocardiography                     ---
                                                              MOVE! Program
                                                                 Social Work
 Hibbing                                  ---                         ---                   Tele Primary Care




10
    Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the October 1, 2012, through September 30, 2013, timeframe at the 

specified CBOC.

11
    Specialty Care Services refer to non-Primary Care and non-MH services provided by a physician.

12
    Ancillary Services refer to non-Primary Care and non-MH services that are not provided by a physician. 

13
    Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

14 
   VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 


VA OIG Office of Healthcare Inspections                                                                           10
                                                                    CBOC and PCC Reviews at Minneapolis VA Health Care System, Minneapolis, MN
                                                                                                                                   Appendix B


                                                          PACT Compass Metrics




                                                                                                                                                                
Data Definition.e The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the appointment
or one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the national to the
division level.
VA OIG Office of Healthcare Inspections                                                                                                                  11
                                                                     CBOC and PCC Reviews at Minneapolis VA Health Care System, Minneapolis, MN




Data Definition.e The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures. The
total number of scheduled appointments for primary care-assigned patients in primary care clinics 322, 323 and 350. Data is collected twice a month on the 1st
and the 15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure.


VA OIG Office of Healthcare Inspections                                                                                                                    12
                                                                    CBOC and PCC Reviews at Minneapolis VA Health Care System, Minneapolis, MN




Data Definition.e This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s PCP/AP.

VA OIG Office of Healthcare Inspections                                                                                                                  13
                                                                    CBOC and PCC Reviews at Minneapolis VA Health Care System, Minneapolis, MN




Data Definition.e Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric.

VA OIG Office of Healthcare Inspections                                                                                                                   14
                      CBOC and PCC Reviews at Minneapolis VA Health Care System, Minneapolis, MN
                                                                                     Appendix C
                                VISN Director Comments


               Department of
               Veterans Affairs 	                                Memorandum


           Date:        August 26, 2014

          From:         Director, VA Midwest Health Care Network (10N23)

       Subject: 	       CBOC and PCC Reviews of the Minneapolis VA Health
                        Care System, Minneapolis, MN

             To:        Director, Denver Office of Healthcare Inspections (54DV)

                        Director, Management Review Service (VHA 10AR MRS
                        OIG CAP CBOC)

       I have reviewed the report of the Community Based Outpatient Clinic and
       Primary Care Clinic Reviews at the Minneapolis VA Health Care System
       conducted July 21-31, 2014, in addition to the MVAHCS response and
       action plans. I concur with the facility response and action plans. Thank
       you for the opportunity to review this report.


        (original signed by:)
       JANET P. MURPHY, MBA
       Network Director




VA OIG Office of Healthcare Inspections                                                      15
                     CBOC and PCC Reviews at Minneapolis VA Health Care System, Minneapolis, MN
                                                                                    Appendix D
                             Facility Director Comments



               Department of
               Veterans Affairs                                 Memorandum


           Date:       August 21, 2014

          From:        Director, Minneapolis VA Health Care System (618/00)

       Subject:        CBOC and PCC Reviews of the Minneapolis VA Health
                       Care System, Minneapolis, MN

             To:       Director, VA Midwest Health Care Network (10N23)

       1. Thank you for the opportunity to review the draft report of
          recommendations from the Community Based Outpatient Clinic and
          Primary Care Clinic Reviews at the Minneapolis VA Health Care
          System conducted July 21-31, 2014. I have reviewed the report and I
          concur with the recommendations and the action plans.

       2. If you have any questions please feel free to contact me at (612) 725-
          2101.

           (original signed by:)
           Patrick J. Kelly, FACHE
           Director, Minneapolis VA Health Care System




VA OIG Office of Healthcare Inspections                                                     16
                     CBOC and PCC Reviews at Minneapolis VA Health Care System, Minneapolis, MN


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that CBOC/Primary Care Clinic staff provide
education and counseling for patients with positive alcohol screens and drinking alcohol
above National Institute on Alcohol Abuse and Alcoholism limits.

Concur

Target date for completion: March 31, 2015

Facility response: Clinical staff of the CBOC/Primary Care Clinics will receive education
about providing education and counseling for patients with positive alcohol screens.
Compliance with documentation of education and counseling provided to Veterans will
be monitored through clinical reminder data and External Peer Review Program data,
and will be reported to the Quality Management Council.

Recommendation 2.        We recommended that CBOC/Primary Care Clinic staff
consistently document the offer of further treatment to patients diagnosed with alcohol
dependence.

Concur

Target date for completion: March 31, 2015

Facility response: Clinical staff of the CBOC/Primary Care Clinics will receive education
about documenting the offer of further treatment to patients diagnosed with alcohol
dependence. Data will be monitored monthly of the percent of patients with a positive
screen for whom there was documentation that an offer of further treatment was made,
and will be reported to the Quality Management Council.

Recommendation 3. We recommended that managers ensure that patients with
excessive persistent alcohol use receive brief treatment or are evaluated by a specialty
provider within 2 weeks of the screening.

Concur

Target date for completion: March 31, 2015

Facility response: Clinical staff of the CBOC/Primary Care Clinics and Mental Health
providers will receive education about providing brief treatment or evaluation by a
specialty provider within 2 weeks of screening when the screening identifies that the
patient has excessive persistent alcohol use. The percent of patients for whom there


VA OIG Office of Healthcare Inspections                                                     17
                     CBOC and PCC Reviews at Minneapolis VA Health Care System, Minneapolis, MN


was documentation that brief treatment or an evaluation by a specialty provider was
completed when required will be monitored and reported to the Quality Management
Council.

Recommendation 4. We recommended that CBOC/Primary Care Clinic Registered
Nurse Care Managers receive motivational interviewing and health coaching training
within 12 months of appointment to Patient Aligned Care Teams.

Concur

Target date for completion: March 31, 2015

Facility response: All RN Case Managers will receive motivational interviewing and
health coaching training within a year of assignment to a Patient Aligned Care Team
(PACT), and new staff will receive this training as part of New Employee Orientation.
Monthly education data will be reported to Chiefs of the Primary Care Clinics, RN Clinic
Directors, and Primary Care Patient Service Line leaders, with the goal of maintaining
compliance with training requirements as new staff are added to PACT teams.

Recommendation 5.        We recommended that staff document that medication
reconciliation was completed at each episode of care where the newly prescribed
fluoroquinolone was administered, prescribed, or modified.

Concur

Target date for completion: December 31, 2014

Facility response: Staff will document medication reconciliation at each episode of care
when prescribing, administering or modifying fluoroquinolone. Use of a Medication
Reconciliation template to include this documentation has been reinforced via an
education memorandum from the Chief of Staff on July 11, 2014. Audits of the medical
record outpatient visits will be conducted to ensure that medication reconciliation is
documented.

Recommendation 6.           We recommended               that   staff   provide    medication
counseling/education as required.

Concur

Target date for completion: December 31, 2014

Facility response:      Physicians and pharmacists will provide medication
counseling/education when new medications are prescribed or when medication orders
are changed. Staff were educated in a memorandum from the Chief of Staff on July 11,
2014. A medication education template was revised on July 15, 2014 to ensure that
proper medication counseling/education was completed and documented in the medical
record. Audits of the medical record outpatient visits will be conducted to ensure that
medication education is documented by physicians and pharmacists when required.


VA OIG Office of Healthcare Inspections                                                     18
                     CBOC and PCC Reviews at Minneapolis VA Health Care System, Minneapolis, MN


Recommendation 7. We recommended that clinical executive/primary care leaders
ensure that CBOC/Primary Care Clinic Designated Women’s Health Providers maintain
proficiency as required for the provision of women’s health care.

Concur

Target date for completion: December 31, 2014

Facility response: A “Women’s Health Update” program was developed to ensure
proficiency in providing women’s health care, and will be offered on September 24-25,
2014 for all Designated Women’s Health Providers (DWHP) and primary care providers
who are interested in being designated as Women’s Health Providers. Staff may submit
documentation of an alternate training or experience in women’s health to meet the
proficiency requirements. To maintain proficiency going forward, DWHP who do not
have 10% female patients in their panels will be required to provide documentation on
an annual basis of continuing education or experience. Compliance will be tracked by
the Women Veterans Program Manager and reported annually to the Women Veterans
Advisory Committee.

Recommendation 8. We recommended that the chief of staff consistently ensure that
all Designated Women’s Health Providers are designated with the women’s health
indicator in the Primary Care Management Module.

Concur

Target date for completion: August 31, 2014

Facility response: In May 2014, all providers were accurately entered in the Primary
Care Management Module (PCMM) as Designated Women’s Health Providers (DWHP).
Monthly reports will be submitted to the Women’s Health Medical Director and the Chief
of Staff demonstrating that the PCMM is kept up to date as changes occur, with all
DWHP’s correctly designated.




VA OIG Office of Healthcare Inspections                                                     19
                     CBOC and PCC Reviews at Minneapolis VA Health Care System, Minneapolis, MN
                                                                                    Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Virginia Solana, RN, MA
Contributors
Other                   Ann Ver Linden, RN, MBA, Team Leader
Contributors            Cheryl Walker, ARNP, MBA
                        Lin Clegg, PhD
                        Matt Frazier, MPH
                        Jeff Joppie, BS
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                     20
                     CBOC and PCC Reviews at Minneapolis VA Health Care System, Minneapolis, MN
                                                                                    Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Midwest Health Care Network (10N23)
Director, Minneapolis VA Health Care System (618/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Tammy Baldwin, Al Franken, Ron Johnson, Amy Klobuchar
U.S. House of Representatives: Michele Bachmann, Sean P. Duffy, Keith Ellison,
 John Kline, Betty McCollum, Rick Nolan, Erik Paulsen, Collin C. Peterson,
 Timothy J. Walz


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                     21
                          CBOC and PCC Reviews at Minneapolis VA Health Care System, Minneapolis, MN
                                                                                        Appendix G

                                                   Endnotes 


a
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
b
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP), Veteran Health Education and Information
   (NVEI) Program, Patient Education: TEACH for Success. Retrieved from
   http://www.prevention.va.gov/Publications/Newsletters/2013/HealthPOWER_Prevention_News_Winter_2012_2
   013_FY12_TEACH_MI_Facilitator_Training.asp on January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
c
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
d
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
e
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    22
